   Department of Health and Human Services
                      OFFICE OF
                 INSPECTOR GENERAL


THE UNIVERSITY OF COLORADO DENVER
  DID NOT ALWAYS CLAIM SELECTED
    COSTS CHARGED DIRECTLY TO
 DEPARTMENT OF HEALTH AND HUMAN
  SERVICES AWARDS IN ACCORDANCE
    WITH FEDERAL REGULATIONS


     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                      Gloria L. Jarmon
                                                   Deputy Inspector General

                                                           June 2013
                                                         A-07-11-06013
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

University of Colorado Denver

The University of Colorado Denver (the University) is a public institution located on two
campuses in the Denver, Colorado, metropolitan area. For the period October 1, 2009, through
September 30, 2010, the University claimed reimbursement for approximately $151.2 million in
costs incurred on 971 grants, contracts, and other agreements (awards) with components of the
Department of Health and Human Services (HHS). In addition to its regular funding through
grants and contracts, the University was awarded 276 grants totaling $71.5 million in funding
provided by the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
(February 17, 2009).

Cost Principles

By accepting HHS awards, the University agreed to comply with regulations governing the use
of Federal funds and to ensure that costs charged to those awards are allowable under the cost
principles established in 2 CFR part 220 (Office of Management and Budget Circular A-21).
These cost principles require that, to be allowable, costs must be reasonable, be allocable, and
conform to any exclusions or limitations set forth in the cost principles or sponsored agreements.

Award Administration

The University’s Office of Grants and Contracts accepts and administers awards on behalf of the
University. The Office of Grants and Contracts is responsible for reviewing transactions
proposed by colleges, departments, and principal investigators to ensure that those transactions
comply with Federal regulations.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

OBJECTIVE

Our objective was to determine whether selected costs that the University charged to HHS
awards were allowable.

SUMMARY OF FINDINGS

Not all of the selected costs that the University charged to HHS awards were allowable. In our
sample of 100 salary transactions, 82 were allowable, but 18 were not. In our sample of 100
nonsalary transactions, 91 were allowable, but 9 were not. Based on our sample results, we
estimated that, of the $42,466,929 in costs covered by our review, the University charged at least
$1,234,883 in unallowable salary and nonsalary costs to HHS awards during FY 2010.



                                                i
In addition, the University charged unallowable direct and facilities and administrative costs
totaling $184,641 for two awards. The costs were unallowable because the University
relinquished the awards to another institution and charged costs to the awards after their
relinquishment.

The University’s oversight did not ensure that all costs claimed were allowable. Although its
finance and accounting procedures often incorporated text from the applicable cost principles, the
University largely left it to the discretion of its individual colleges, departments, and principal
investigators to interpret the University’s policies and procedures for charging costs to Federal
awards correctly and to comply with Federal regulations and guidance.

RECOMMENDATIONS

We recommend that the University:

   •   refund $1,419,524 to the Federal Government and

   •   exercise more stringent oversight of charges to Federal awards to ensure compliance with
       Federal regulations.

UNIVERSITY COMMENTS

In written comments on our draft report, the University disagreed with some of our findings.
Specifically, the University stated that:

   •   13 of the 18 salary transactions that we questioned were allowable and

   •   1 of the 9 nonsalary transactions that we questioned was allowable.

Regarding our finding on the two awards that were relinquished to another institution, the
University said that it had identified this error and notified the National Institutes of Health
(NIH) before our fieldwork, and it asked that we remove this finding from our report.

The University also took exception to our conclusions about its internal controls and the issue
that we identified as “Other Matter.”

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the University’s comments and the additional information that it gave to us, we
maintain that our findings and recommendations are valid. None of the additional information
that the University gave to us constituted sufficient documentation for us to conclude that any of
the costs in question were allowable. Moreover, NIH was not aware at the start of our fieldwork
that the University had received reimbursement for expenses associated with the two
relinquished awards after the relinquishment dates. Finally, we maintain that our assessment of
the internal control deficiencies was consistent with both the scope of our audit and the nature of
our findings.

                                                  ii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ...........................................................................................................          1
              University of Colorado Denver ..........................................................................                    1
              Cost Principles ...................................................................................................         1
              Award Administration .......................................................................................                1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................                                     1
               Objective ............................................................................................................     1
               Scope ..................................................................................................................   1
               Methodology ......................................................................................................         2

FINDINGS AND RECOMMENDATIONS .......................................................................... 3

          UNALLOWABLE COSTS ...........................................................................................                   4
              Salary Costs .......................................................................................................        4
              Nonsalary Costs .................................................................................................           6
              Costs Charged to Two Awards After Relinquishment Dates ............................                                         7

          INADEQUATE CONTROLS ....................................................................................... 8

          EFFECT OF UNALLOWABLE COSTS ...................................................................... 8

          RECOMMENDATIONS ............................................................................................... 9

          UNIVERSITY COMMENTS AND
               OFFICE OF INSPECTOR GENERAL RESPONSE ........................................ 9
               Salary Costs ....................................................................................................... 9
               Nonsalary Costs ................................................................................................. 10
               Reimbursement of Two Relinquished Awards .................................................. 11
               Internal Controls ................................................................................................ 11

OTHER MATTER................................................................................................................... 12

          UNIVERSITY COMMENTS ........................................................................................ 12

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 12

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY—SALARY TRANSACTIONS



                                                                     iii
B: SAMPLE DESIGN AND METHODOLOGY—NONSALARY TRANSACTIONS

C: SAMPLE RESULTS AND ESTIMATES—SALARY COSTS

D: SAMPLE RESULTS AND ESTIMATES—NONSALARY COSTS

E: UNIVERSITY COMMENTS




                          iv
                                       INTRODUCTION

BACKGROUND

University of Colorado Denver

The University of Colorado Denver (the University) is a public institution located on two
campuses in the Denver, Colorado, metropolitan area. For the period October 1, 2009, through
September 30, 2010, the University claimed reimbursement for approximately $151.2 million in
costs incurred on 971 grants, contracts, and other agreements (awards) with components of the
Department of Health and Human Services (HHS). In addition to its regular funding through
grants and contracts, the University was awarded 276 grants totaling $71.5 million in funding
provided by the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
(February 17, 2009).

Cost Principles

The HHS grant administration rules require recipients of grant awards to comply with
regulations governing the use of Federal funds and to ensure that costs charged to those awards
are allowable under the applicable cost principles (45 CFR § 74.27(a)). The cost principles for
educational institutions are established in 2 CFR part 220 (Office of Management and Budget
(OMB) Circular A-21). These cost principles require that, to be allowable, costs must be
reasonable, be allocable, and conform to any exclusions or limitations set forth in the cost
principles or sponsored agreements.

Award Administration

The University’s Office of Grants and Contracts accepts and administers awards on behalf of the
University. The Office of Grants and Contracts is responsible for reviewing transactions
proposed by colleges, departments, and principal investigators to ensure that those transactions
comply with Federal regulations.

Principal investigators are responsible for all programmatic and administrative aspects of an
award, including the conduct of research or other activity described in a proposal for an award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected costs that the University charged to HHS
awards were allowable.

Scope

Our audit covered $10,458,409 in salary transactions and $32,008,520 in nonsalary transactions
claimed for reimbursement for the period October 1, 2009, through September 30, 2010 (fiscal

                                                1
year (FY) 2010). We limited the audit to grants, contracts, and other agreements between the
University and the National Institutes of Health (NIH), the Centers for Disease Control and
Prevention, and the Health Resources and Services Administration. We did not evaluate
transactions charged to the University’s agreements with other Federal departments and
agencies.

We limited our assessment of internal controls to the University’s policies and procedures for
charging costs to Federal awards. We conducted our fieldwork at the University’s offices in
Aurora, Colorado.

Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal regulations and guidelines;

    •    reviewed the University’s policies and procedures for charging costs to Federal awards;

    •    reviewed the University’s Cost Accounting Standards Board Disclosure Statement
         (DS-2); 1

    •    obtained from the University a list of transactions for all of the costs charged directly to
         HHS awards;

    •    reviewed the University’s account codes and identified accounts that we considered
         administrative in nature; 2

    •    removed offsetting transactions, 3 benefits transactions, 4 and low-dollar transactions (less
         than $5) to arrive at our audit universe of $10.5 million in salary transactions and
         $32.0 million in nonsalary transactions;

    •    selected and determined the allowability of statistical samples of 100 salary transactions
         (Appendix A) and 100 nonsalary transactions (Appendix B);


1
 Educational institutions that receive aggregate sponsored agreements totaling $25 million or more are required to
disclose their cost accounting practices by filing a disclosure statement (DS-2). The University has submitted a
DS-2 to HHS, Division of Cost Allocation.
2
  These accounts were associated with $103.6 million in salary transactions and $63.2 million in nonsalary
transactions.
3
 Offsetting transactions are expenditures charged to a grant that were subsequently adjusted by transferring the
costs to another funding source(s).
4
 Benefits transactions are expenditures associated with salary costs, such as medical and dental insurance and costs
of 401(k) employee retirement plans.


                                                          2
       •   computed the facilities and administrative (F&A) costs related to these unallowable
           transactions;

       •   estimated the unallowable amounts that were charged to HHS awards (Appendixes
           C and D); and

       •   discussed our findings with University officials on June 10, 2012.

We evaluated the sample transactions based on documentation that the University’s Office of
Grants and Contracts provided. For transactions not initially supported by the documentation
provided, we asked the University’s Office of Grants and Contracts and the principal
investigators on the related awards to submit additional information.

We discussed our tentative findings and conclusions with NIH representatives during our audit.
NIH provided additional information regarding the nature of the awards to which the sampled
transactions were charged, and we considered that information in reaching our conclusions on
the allowability of the costs. 5

We assessed the reliability of transactions data by performing electronic testing for obvious
errors in accuracy and completeness, reviewing related documentation, and interviewing agency
officials knowledgeable about the data. In addition, we traced a statistically random sample of
data to source documents (see Appendixes A and B for details). We determined that the data
were sufficiently reliable for the purposes of this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                 FINDINGS AND RECOMMENDATIONS

Not all of the selected costs that the University charged to HHS awards were allowable. In our
sample of 100 salary transactions, 82 were allowable, but 18 were not. In our sample of 100
nonsalary transactions, 91 were allowable, but 9 were not. 6 Based on our sample results, we
estimated that, of the $42,466,929 in costs covered by our review, the University charged at least
$1,234,883 in unallowable salary and nonsalary costs to HHS awards during FY 2010. (See
Appendixes C and D.)




5
  We discussed our findings primarily with NIH representatives during the audit because the majority of our sample
transactions related to NIH awards.
6
    For some of the transactions, we disallowed only a portion of the transaction.


                                                            3
In addition, the University charged unallowable direct and F&A costs totaling $184,641 for two
awards. The costs were unallowable because the University relinquished the awards to another
institution and charged costs to the awards after their relinquishment.

The University’s oversight did not ensure that all costs claimed were allowable. Although its
finance and accounting procedures often incorporated text from the applicable cost principles,
the University largely left it to the discretion of its individual colleges, departments, and
principal investigators to interpret the University’s policies and procedures for charging costs to
Federal awards correctly and to comply with Federal regulations and guidance.

UNALLOWABLE COSTS

Salary Costs

Of the 100 transactions in our sample of salary costs, 18 transactions totaling $7,619 were not
allowable. Specifically:

   •   15 transactions totaling $7,290 were not supported with sufficient documentation and

   •   3 transactions totaling $329 should have been treated as F&A costs and not charged as
       salary costs.

Unsupported Costs

Pursuant to 2 CFR part 220, Appendix A, § J.10.b(2)(b), a grantee’s payroll distribution system
must “reasonably reflect the activity for which an employee is compensated by the institution”
and must provide for “after-the-fact confirmation or determination so that costs distributed
represent actual costs” unless the grantee and awarding agency reach an alternative agreement.
This section also states that salaries and wages “may be confirmed by responsible persons with
suitable means of verification that the work was performed.”

An acceptable method for payroll distribution requires after-the-fact personnel activity reports to
support the distribution of salaries in the payroll system. These reports are designed to capture
the work performed by the employee to justify the distribution of salary and wages to sponsored
projects. These reports are to be signed either by the employee or principal investigator “using
suitable means of verification that the work was performed” (2 CFR part 220, Appendix A,
§ J.10.c(2)(c)).

Pursuant to the Cost Accounting Standards Board Disclosure Statement, the University requires
hourly employees who are not covered by the University’s Personal Effort Reporting System
process to attest to the appropriateness of wages charged to a sponsored project reflecting the
actual effort expended. The attestation is done on a prescribed timesheet (that is, the personnel
activity report) on which the employee certifies that (1) the project(s) identified on the timesheet
are appropriate to pay the hours and (2) the percentage of time attributed to each project reflects
the actual effort expended on that project.


                                                 4
Fourteen transactions totaling $5,207 were not supported with sufficient documentation to allow
us to determine whether hourly payroll costs were allocated based on actual costs rather than on
budget estimates. The employees prepared personnel activity reports that included the total
hours worked, but these reports did not identify the projects or activities on which the employees
worked. For example, 100 percent of one hourly employee’s effort was charged to an award. 7
The employee’s personnel activity report identified the hours worked but did not identify the
project for which the hours were spent. Because the personnel activity report did not reflect the
project or activity for which the employee expended effort, it did not provide adequate
documentation to support the determination to distribute salaries and wages for this employee.
Because the personnel activity reports did not identify the projects or activities worked on, we
could not determine whether costs were allocated based on actual costs or budget estimates.

In addition, for one transaction totaling $2,083, the University could not provide a personnel
activity report documenting the time charged to an award. 8 A student was hired as a research
assistant on July 1, 2009, but the position was not officially approved until a year later. During
this period, the research assistant’s salary was erroneously charged to the award as a stipend.
The payroll system did not generate effort reports necessary to certify the employee’s time and
effort until after the position was approved. 9 Therefore, for the pay period of the reviewed
transaction, the University could not provide a personnel activity report pursuant to 2 CFR
part 220, Appendix A.

Facilities and Administrative Costs Charged as Direct Costs

Federal regulations (2 CFR part 220, Appendix A, § F.6.b) include specific guidance regarding
the treatment of charges for administrative and clerical expenses incurred within various
departments of a college or university, and state: “The salaries of administrative and clerical
staff should normally be treated as F&A costs.”

The University charged directly to HHS awards three sampled transactions totaling $329 for
administrative and clerical work. For example, our sample included a direct charge to an
award 10 for the salary of a fiscal coordinator. The employee’s duties included managing all
project budgets, reconciling fiscal reports to funding agencies, correcting posting errors, and
tracking personnel budget allocations. Costs for duties such as these should not have been
charged directly to the awards because they involved salaries of administrative and clerical staff,
and neither the nature of the work performed on the projects nor any other circumstances
justified any unusual degree of administrative support or showed that the employees discharging
these administrative and clerical duties were necessary for the performance of the awards.

7
    Award entitled Multiple Mechanisms of Nasal Chemoreception.
8
 Award entitled The Role of PRDM1 [a gene that encodes a protein that acts as a repressor of beta-interferon gene
expression] in Neural Cell Fate Specification.
9
 An effort report is a type of personnel activity report that, under the University’s procedures, is used by salaried
workers.
10
     Award entitled Trust and Genetics Research in Diverse U.S. Communities.


                                                           5
Based on our sample results, we estimated that the University charged unallowable salary costs
of at least $529,145 to HHS awards during our audit period (an estimated $361,242 at the lower
limit of the 90-percent confidence interval in salary costs plus an estimated $167,903 at the lower
limit of the 90-percent confidence interval in related F&A costs).

Nonsalary Costs

Of the 100 transactions in our sample of nonsalary costs, 9 transactions totaling $1,615 were not
allowable. Specifically:

     •   five transactions totaling $959 should have been treated as F&A costs rather than as
         direct charges to the awards,

     •   one transaction totaling $400 had insufficient supporting documentation, and

     •   three transactions totaling $256 were not allocable to three grants.

Facilities and Administrative Costs Charged as Direct Costs

Federal regulations (2 CFR part 220, Appendix A, § F.6.b) include specific guidance regarding
the treatment of charges for administrative and clerical expenses incurred within various
departments of a college or university, and state: “Items such as office supplies, postage, local
telephone costs, and memberships shall normally be treated as F&A costs.”

For five transactions totaling $959, the University charged as direct costs general-use supplies
that should have been treated as F&A costs. These administrative expenses charged directly to
HHS-funded grants, contracts, and other agreements included monthly local telephone line
charges, memberships, a computer monitor, and general office supplies.

Unsupported Costs

Federal regulations (2 CFR part 215; OMB Circular A-110, § C.21(b)) state: “Recipient
financial management systems shall provide for accounting records … that are supported by
source documentation.”

For one transaction totaling $400, the University charged lab supplies to an award 11 but could not
provide a receipt or any other documentation supporting the charge.




11
  Award entitled Molecular Mechanisms of Ethanol Sensitivity in ILS [Inbred Long-Sleep] and ISS [Inbred Short-
Sleep] Mice.


                                                       6
Unallocable Costs

Pursuant to 2 CFR part 220, Appendix A, § C.4.a:

           A cost is allocable to a sponsored agreement if it is incurred solely to advance the
           work under the sponsored agreement; it benefits both the sponsored agreement
           and other work of the institution, in proportions that can be approximated through
           use of reasonable methods, or it is necessary to the overall operation of the
           institution and … is deemed to be assignable in part to sponsored projects.

For three transactions totaling $256, the University improperly allocated costs. For example, the
University charged an award 12 for janitorial services including restroom cleanup and trash
pickup. These services were billed as direct costs rather than as indirect (F&A) costs.
Moreover, these billed services were actually for overtime work that was performed on another
project and therefore did not meet the criteria for allocability as stated in 2 CFR part 220,
Appendix A.

Based on our sample results, we estimated that the University charged unallowable nonsalary
costs of at least $705,738 to HHS awards during our audit period (an estimated $532,919 at the
lower limit of the 90-percent confidence interval in nonsalary costs plus an estimated $172,819
at the lower limit of the 90-percent confidence interval in related F&A costs).

Costs Charged to Two Awards After Relinquishment Dates

The University agreed to relinquish responsibility for two active projects before the expiration of
the approved project period. Under this circumstance, the originally responsible organization
(that is, the University) must submit form PHS (Public Health Service) 3734, Official Statement
Relinquishing Interests and Rights in a Public Health Service Research Grant, to the awarding
agency (in this case, NIH). The relinquishment statement contains the following agreement:

           In view of the fact that we do not wish to nominate another principal investigator
           or continue the research project at this Institution, this is to signify our willingness
           to terminate this grant as of [date] and to relinquish all claims to any unexpended
           and uncommitted funds remaining in the grant as of that date, as well as to all
           recommended future support of this project.

During FY 2010, two principal investigators transferred from the University to another
institution. With these transfers, the University agreed to relinquish all rights and interests for
two awards, whose activities had been conducted by these principal investigators, to the gaining
institution. After the relinquishment of these awards, the University received reimbursement of
direct and F&A costs totaling $184,641.




12
     Award entitled Colorado Clinical and Translational Science Institute.


                                                           7
The University submitted relinquishing statements to NIH for the awards being transferred. In
so doing, the University agreed that the first of these two awards 13 would end on April 29, 2010,
the relinquishment date for the award. However, from April 30, 2010, through September 30,
2010, the University claimed costs (for which it subsequently received reimbursement) totaling
$113,926 for operating, payroll, and F&A costs for this award. The University agreed that
another award 14 would end on May 17, 2010. However, from May 18, 2010, through
September 1, 2010, the University claimed costs (for which it subsequently received
reimbursement) totaling $70,715 for operating, payroll, and F&A costs for this second award.

The University stated that it originally scheduled the awards to be relinquished in September 2010
but subsequently had to modify the relinquishment dates because the principal investigators
decided to leave earlier than expected.

If the University incurred allowable costs for these awards after the relinquishment dates, the
University should have received reimbursement from the other institution under a subcontract
arrangement. Once the principal investigators had transferred and the awards had been
relinquished, the University should not have claimed Federal reimbursement for any subsequent
expenses.

INADEQUATE CONTROLS

The University’s oversight did not ensure that the costs that the University charged to HHS
awards were allowable. Although its finance and accounting procedures often incorporated text
from the applicable cost principles, the University largely left it to the discretion of its individual
colleges, departments, and principal investigators to interpret the University’s policies and
procedures for charging costs to Federal awards correctly and to comply with Federal regulations
and guidance. In addition, the University’s Office of Grants and Contracts’ review of
transactions did not ensure that the colleges, departments, and principal investigators proposed
transactions that fully complied with Federal regulations. Without adequate oversight, the
University could not ensure that administrative expenses charged as direct costs to HHS awards
complied with applicable Federal regulations.

EFFECT OF UNALLOWABLE COSTS

Based on our sample results, we estimated that the University charged unallowable salary and
nonsalary costs totaling at least $1,234,883 to HHS awards during our audit period. We also
determined that the University charged unallowable direct and F&A costs totaling $184,641 for
two awards to which the University continued to charge costs after the awards had been
relinquished to another institution. These unallowable costs totaled $1,419,524.




13
     Award entitled Translational Regulation in Alzheimer’s Disease.
14
     Award entitled Chromatin’s Role in Repair of Radiation-Induced Damage.

                                                          8
RECOMMENDATIONS

We recommend that the University:

     •   refund $1,419,524 to the Federal Government and

     •   exercise more stringent oversight of charges to Federal awards to ensure compliance with
         Federal regulations.

UNIVERSITY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the University disagreed with some of our findings.
Specifically, the University stated that:

     •   13 of the 18 salary transactions that we questioned were allowable and

     •   1 of the 9 nonsalary transactions that we questioned was allowable.

Regarding our finding on the two awards that were relinquished to another institution, the
University said that it had identified this error and notified NIH before our fieldwork, and it
asked that we remove this finding from our report.

The University also took exception to our conclusions about its internal controls and the issue
that we identified as “Other Matter.”

After reviewing the University’s comments and the additional information that it gave to us, we
maintain that our findings and recommendations are valid. A summary of the University’s
comments and our responses follows.

The University’s written comments are included as Appendix E. We excluded 126 pages of
attachments because they contained personally identifiable information and because of their
volume. We are providing the University’s comments in their entirety to NIH.

Salary Costs

University Comments

The University disagreed with 13 salary transactions totaling $4,727 that, according to our
analysis, were unallowable because they were not supported with sufficient documentation.

The University cited 2 CFR part 220, 15 Appendix A, § J.10.c(2)(c) as justification for a broader
definition of the kinds of “responsible officials” who could verify that work had been performed.
15
  The University’s comments referred to this regulation as OMB Circular A-21 rather than by the designation
(2 CFR part 220) that we use in this report and that reflects this document’s codification in Federal regulations.


                                                           9
The University also cited §§ J.10.b(1)(c) and (d) of this same regulation, language which, the
University said, acknowledged the complexity of payroll distribution and the fact that methods
would therefore vary to accommodate this complexity.

The University also stated that the timesheets documenting these costs did not identify the
projects or activities on which the employees worked because hourly employees generally did
not know which projects their work benefited or, if they worked on multiple projects located in
the same laboratory, the proportion of employee time devoted to each project. The University
added that to obtain the firsthand knowledge needed for appropriate allocation of employee time
and distribution of salaries, its batch approval process included a review and approval of the
timecard input batch by one of the principal investigator’s management or administrative staff.
The University concluded that these salary transactions met the documentation standards of
2 CFR part 220 and the University’s DS-2.

Office of Inspector General Response

The additional regulatory language that the University cited dealt with the methodology used to
allocate and verify employee time. However, we are questioning these costs not on the basis of
this methodology, but rather on the basis of the lack of adequate supporting documentation. On
that basis, we disagree that the documentation that the University provided was sufficient support
for these 13 salary transactions. The documentation of the batch approval process consisted of a
spreadsheet and emails that were created after our fieldwork and that did not adequately support
the costs in question. Therefore, the University was not able to provide suitable after-the-fact
support (as required by 2 CFR part 220, Appendix A, § J.10.b(2)(b)) for the verification of
distribution of salaries.

Nonsalary Costs

University Comments

The University disagreed with one nonsalary transaction totaling $221 in supply costs that,
according to our analysis, was unallowable because it was not allocable to the grant.

The University stated that during the exit conference, 16 we said that, based on our interview with
the principal investigator of the project, these supply costs should have been allocated among
more than one project. The University added that its Office of Grants and Contracts contacted
the principal investigator, who replied that his response during the interview was more general in
nature rather than specific to this invoice. The University concluded that this expense was not
allocated to more than one project and was consumed by the single project.

Office of Inspector General Response

We disagree that this expense was consumed by the single project and should have not been
allocated. In our interview, the principal investigator stated that the items in the invoice in
question were general-use supplies and that these item expenditures were charged to projects
16
     The exit conference took place on June 10, 2012; see “Methodology.”

                                                         10
based on what was available in the monthly budget. The principal investigator also mentioned
that he worked on several projects and did not monitor or measure the allocation of general
supply items among the projects. Because Federal regulations are clear as to the allocability of
costs to sponsored projects, we maintain that the $221 charge to the Federal grant award was
unallowable because the principal investigator told us the supplies were used on several projects,
and the University was unable to provide us with additional documentation substantiating
otherwise.

Reimbursement of Two Relinquished Awards

University Comments

The University agreed that reimbursement was claimed in error after the relinquishment date of
two awards, but it disagreed with the inclusion of this finding in the report. The University said
that it had identified this error and notified NIH of it on December 10, 2010—before the
beginning of our fieldwork. The University also said that it reimbursed the entire amount owed
to NIH on March 29, 2012, which was before the issuance of our draft report.

Office of Inspector General Response

We recognize that as a result of our audit, the University has returned these funds to NIH.
Although the University had begun the resolution process to correct the two principal
investigators’ termination dates, NIH officials indicated to us that they were not aware at the start
of our fieldwork that the University had received reimbursement for expenses incurred after the
relinquishment dates. Thus, NIH officials were not aware, prior to our audit, that the University
intended to submit a refund for these improperly claimed expenditures. On December 22, 2011,
we provided NIH with the information regarding these improperly claimed expenditures. NIH
responded that those expenses were not allowable and requested that we facilitate the
reimbursement of those funds.

Internal Controls

University Comments

The University disagreed with our statement that the errors discussed in this report were caused
by inadequate controls and oversight. The University said that all of the findings with which it
agreed were independent, isolated errors and that there was no indication that they were the
result of a common and systematic cause. The University described its control environment as
“an effective partnership” and added that our audit focused on the allowability of direct expenses
and dealt primarily with documentation. The University thus stated that our conclusion
regarding internal controls did not conform to the type of review we conducted or the nature of
the errors we noted.




                                                 11
Office of Inspector General Response

As stated in “Scope,” we limited our assessment of internal controls to the University’s policies
and procedures for charging costs to Federal awards. We based our conclusion related to internal
controls on the issues that we identified. Our assessment of the University’s internal control
deficiencies was consistent with both the scope of our audit and the nature of our findings.
Consequently, we continue to recommend that the University exercise more stringent oversight
of charges to Federal awards to ensure compliance with Federal regulations.

                                        OTHER MATTER

Federal regulations (2 CFR part 220, Appendix A, §§ J.10.b(2) and J.10.c(2)) require “suitable
means of verification that the work was performed.” In addition, University policy states that
personnel are required to certify their effort reports within 120 days of their creation. (As
mentioned earlier, an effort report is a type of personnel activity report that, under the
University’s procedures, is used by salaried workers.) The University had effort reports that
were certified 120 days or more after the reports were created. Three of fifty-seven salary
transactions in our sample, supported with effort reports, had certifications that were more than
6 months past the report date. Without the effort reports being certified in a timely manner, the
University has less assurance that the claimed salaries charged to HHS grants for those
employees were appropriate.

UNIVERSITY COMMENTS

The University disagreed with our statement that one of the three effort reports in question was
certified 120 days or more after the report was created. The University said that the date on this
effort report was a recertification date rather than the date of the original certification.

In addition, the University said that neither 2 CFR part 220 nor University policy cite a definitive
deadline for certification of the effort report. For this reason, and because all three effort reports
were ultimately certified, the University disagreed with our conclusion about the verification
process and asked that we remove this matter from our final report.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that all available documentation indicated that all three of the effort reports
mentioned above were in fact certified 120 days or more after the reports were created, in
violation of the University’s own written policy. Although the University said that the effort
report in question was assumed to have been certified between the 45th and 70th day following
its creation date, the University did not provide documentation of the original certification and its
date. As a result, we can only rely on the supporting effort reports provided.

Further, although the cost principles in 2 CFR part 220 do not designate a specific time period or
deadline for certification of effort reports, we maintain that the amount of time between the
creation of an effort report and its certification affects the reliability of the certification itself;
that is, the delays that we noted cast into some question the ability of these certifications to serve

                                                  12
as verification that the work was performed. We therefore maintain that the performance of
certifications 120 days or more after the effort reports were created provides less assurance that
the claimed salaries charged to HHS awards for those employees were appropriate.




                                                13
APPENDIXES
                                                                                                      Page 1 of 2


                   APPENDIX A: SAMPLE DESIGN AND METHODOLOGY—
                                SALARY TRANSACTIONS

POPULATION

The population consisted of salary transactions that were charged to U.S. Department of Health
and Human Services (HHS) awards during Federal fiscal year (FY) 2010. These transactions
were for employee categories that are generally administrative and clerical in nature and treated
as indirect costs and recovered through the University of Colorado Denver’s (the University)
negotiated facilities and administrative (F&A) rates. These transactions were charged directly to
Federal awards.

SAMPLING FRAME

The sample frame contained 10,889 salary transactions totaling $10,458,409. 1

SAMPLE UNIT

The sample unit was a salary transaction.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample size of 100 salary transactions.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.




1
  The original sampling frame contained 10,901 salary transactions totaling $10,462,959. However, while
performing our review of the sample units selected from the original sampling frame, we found that that 12 salary
transactions totaling $4,550 took place during a period when the University did not have a principal investigator
overseeing the grant. According to the contracting officer, all claims during this period were unallowable. Because
all 12 salary transactions were unallowable, we eliminated them from the original sampling frame of 10,901 and
estimated the unallowable salary costs to the remaining 10,889 salary transactions totaling $10,458,409.
                                                                                                       Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the salary transactions from 1 through 10,901. 2 After generating
the random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG, OAS statistical software to estimate the total amount of unallowable salary
costs claimed as direct costs. We also estimated the amount of unallowable F&A costs
associated with the unallowable salary costs.




2
 The sample units were randomly selected from the original sampling frame of 10,901. Because we removed 12
salary transactions from the original sampling frame, we projected the unallowable salary costs to the remaining
10,889 salary transactions. All of the sample units selected from the original sampling frame were included in the
sampling frame of 10,889 salary transactions.
                                                                                                     Page 1 of 2


                 APPENDIX B: SAMPLE DESIGN AND METHODOLOGY—
                            NONSALARY TRANSACTIONS

POPULATION

The population consisted of all nonsalary transactions that were charged directly to HHS awards
from FY 2010. These transactions were for categories generally treated as indirect costs and
recovered through the University’s negotiated F&A rates.

SAMPLING FRAME

The sample frame contained 72,322 nonsalary transactions totaling $32,008,520. 1

SAMPLE UNIT

The sample unit was a nonsalary transaction.

SAMPLE DESIGN

We used a stratified random sample containing two strata as follows:

                                                        Number of                   Value of
     Stratum          Range                            Transactions               Transactions
        1    $5 through $50,000                           72,298                  $29,386,726
        2    $50,001 and above                                24                     2,621,794
             Total                                        72,322                   $32,008,520

SAMPLE SIZE

We selected a sample of 100 nonsalary transactions. The sample size by stratum was:

           Stratum           Number of Sample Items
              1                        76
              2                        24
            Total                     100




1
  The original sampling frame contained 72,542 nonsalary transactions totaling $32,077,611. However, while
performing our review of the sample units selected from the original sampling frame, we found that 220 nonsalary
transactions totaling $69,091 took place during a period when the University did not have a principal investigator
overseeing 2 grants. According to the contracting officer, all claims during this period were unallowable. Because
all 220 nonsalary transactions were unallowable, we eliminated them from the original sampling frame of 72,542
and estimated the unallowable nonsalary costs to the remaining 72,322 nonsalary transactions totaling $32,008,520.
                                                                                                     Page 2 of 2


SOURCE OF RANDOM NUMBERS

We generated the random numbers with the OIG, OAS statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the nonsalary transactions in each stratum. After generating the
random numbers for stratum 1, we selected the corresponding frame items. 2 For stratum 2, we
selected all the nonsalary transactions.

ESTIMATION METHODOLOGY

We used the OIG, OAS statistical software to estimate the amount of unallowable nonsalary
costs claimed as direct costs. We also estimated the amount of unallowable F&A costs
associated with the unallowable nonsalary costs.




2
  The sample units were selected from the original sampling frame of 72,542. Because we removed 220 nonsalary
transactions from the original sampling frame, we projected the unallowable salary costs to the remaining 72,322
nonsalary transactions. All of the sample units selected from the original sampling frame were included in the
sampling frame of 72,322 nonsalary transactions.
                APPENDIX C: SAMPLE RESULTS AND ESTIMATES—
                               SALARY COSTS

                        Sample Results: Unallowable Salary Costs

                                                                               Value of
                                                Number of       Value of     Unallowable
Frame     Value of       Sample     Value of   Unallowable    Unallowable       F&A
 Size      Frame          Size      Sample     Transactions   Transactions   Transactions
10,889   $10,458,409       100      $97,991        18            $7,619          $3,804

                 Estimated Value of Unallowable Salary Transactions
                (Limits Calculated for a 90-Percent Confidence Interval)

                      Unallowable Salary Costs                Unallowable F&A Costs

     Point estimate              $829,676                             $414,167
     Lower limit                  361,242                              167,903
     Upper limit                 1,298,111                             660,430
                    APPENDIX D: SAMPLE RESULTS AND ESTIMATES—
                                 NONSALARY COSTS

                            Sample Results: Unallowable Nonsalary Costs

                                                                                            Value of
                                                             Number of       Value of     Unallowable
          Frame      Value of      Sample       Value of    Unallowable    Unallowable       F&A
Stratum    Size       Frame         Size        Sample      Transactions   Transactions   Transactions
   1      72,298    $29,386,726      76          $61,871         9            $1,615         $692

   2         24      2,621,794       24        2,621,794         0               0             0

 Total    72,322   $32,008,520      100        $2,683,665        9            $1,615         $692

                     Estimated Value of Unallowable Nonsalary Transactions
                      (Limits Calculated for a 90-Percent Confidence Interval)

                   Unallowable Nonsalary Costs                       Unallowable F&A Costs

           Point estimate         $1,536,390                                  $658,405
           Lower limit               532,919                                   172,819
           Upper limit             2,539,860                                 1,143,991
                                                                                                            Page 1 of9


                   APPENDIX E: UNIVERSITY COMMENTS




              University of Colorado
              Denver I Anschutz Medical Campus
Report Number: A-07-11-06013

Mr. Patrick J. Cogley
Regional Inspector General for Audit Services
601 East 121h Street, Room 0429
Kansas City, MO 64106

                                                January 25, 2013

Dear Mr. Cogley,

Following is the University of Colorado Denver's response to the draft report entitled The University of
Colorado Denver Did Not always Claim Selected Costs Charged Directly to Department of Health and
Human Services Awards in Accordance with Federal Regulation.

In accordance with your letter re ceived on December 27, 2012, we have included in our response those
recommendations with which we agree along with our corrective action.

We have also included in our response t hose recommendations w ith which we do not agree along w ith
the basis of our position. In addition, we have attached to this response both the supporting
documentation that has already been submitted to the Department of Health and Human Services,
Office of Inspector General (OIG} and any new supporting documentation that was compil ed since our
last response. Also for your reference, we have included as an attachment to this response, a copy of
the University of Colorado Denver's response to the July 10, 2012 Exit confere nce that was forwarded to
the OIG on September 7, 2012.

We appreciate the opportunity to present the basis of ou r non-concurrence for you r consideration and
look forward to discussing with you these items prior to the final publication of this report . In those
cases where we are unable to reach mutual resolution prior to publication of the report, we request that
our disagreement be reflected in the final report, with a brief text explanation. Please let us know f or
which items you would like us to prepare a short summary of our disagreement.

If we can assist with any questions or provide any additional information you may need, please feel free
to contact Pam Vincent. Her ema il is Pam.Vincent@UCDenver.edu and her office phone is 303-724­
0019.

Thank you again for your consideration of the attached information.

                                                 Regards,




                                                Steve Zweck-Bronner
                                                Office ofthe University Counsel
University of Colorado Denver                   University of Colorado Denver
                                                                                                             Page 2 of9




REIMBURSEMENT OF TWO REQLINQUISHED AWARDS- RESPONSE



The Department of Health and Human Services, Office of Inspector General (OIG) draft report included
in the recommended amount to be reimbursed to the Federal Government $ 184,641 for expenses
incurred after the relinquishment date on two awards. The University of Colorado Denver (CU Denver)
does not agree with this recommendation or the inclusion of this issue in the audit report as CU Denver
reimbursed NIH the entire amount owed to NIH on March 29, 2012, prior to the issuance of this report.
It should also be noted that CU Denver had begun the resolution process with departmental fiscal
personnel and NIH on December 10, 2010, prior to the begi nning of the OIG f ield work on this audit.
This information was shared with OIG during th e audit, but CU Denver would like to reiterate the
inform ation in this response.

It should be noted that both of these awards were transferred together as the PI's were related and left
the institution at the same time. Therefore, we worked on all of the relinquishments with our
Departmental Personnel as a single issue- which will be reflected in the descriptions below.

CU Denver agrees that the relinquishment effective dates were modified from September 30, 2010 to
April30, 2010 and May 17, 2010. However, these changes were not known by the Office o f Grants and
Contracts (OGC) until mid -December 2010 when working to clo se-out the award still using the origina l
relinquishment dates of September 30, 2010. Upon discovery of the change in the effective date of the
terminations, OGC notified the department that the relinquishment statements would need to be
co rrected. In addition, NIH was also not ified of the needed correction . This initial communication was
started on December 12, 2010- prior to the start of this DIG audit.

OGC continued to work with Departmental Personnel and the NIH to correct this error. However, due to
the complexity added by the continued work, and working with more than one Institute and Grants
Management Specialists within NIH, this was still an on-going, independ ent effort during DIG's
fieldwork. This issue was re solved and re-payment made prior to the re ceipt of this Final Report Draft.
Specifically, the repayment wa s completed with the March 29, 2012 draw.

CU Denver is forwarding with this response a sample of email messages . These messages document the
starting point of CU Denver's work, pertinent summaries of the st eps taken to resolve this error, the
timing of these steps and the oversight demonstrated. In addition, CU Denver is sending screen prints
from the Payment Management System (PMS) as of the quarter ending March 31, 2012 documenting
the authorized amount set by the NIH award. The amounts on these PMS docum ents also agree with
the total expenses on the Federal Financial Reports which are in an "accepted" status on NIH Commons.
The concurre nce of the authorized amount to the amount of the expenses provides further
documentation that all amounts have been repaid to t he satisfaction of NIH.

This error had already been identified and disclosed by CU Denver to NIH prior to the start of OIG's audit
and the correction process completed prior to the re ceipt of this audit report. As a res ult, it is CU
Denver's position that this unusu al and isolated issue should be excluded from this report and the
amount of findings reduced by the amount already reimbursed to NIH.




January 25, 2013
Page 1 of 53
                                                                                                                           Page 3 of9




University of Colorado Denver
OIG Audit of Allowable Direct Cha rges
Response to Final Report Draft Received December 27, 2012

UNALLOWABLE COSTS

Salary Costs - Background

CU-Denver agrees with the OIG summary of the first OMB Circular A-21 reference which outlines the
criteria for an acce ptable method of payroll distribution (Sect ion J.10.b(2)(b)).

The OIG also cites Section J.10.c(2)(c) which provides examples of acceptable methods of payroll
distribution. The OIG report includes the OMB section which states, " These reports are to be signed
either by the employee or principal investigator "using a suitable mea ns of verification t hat the work
was performed". This quote does not include the complete OMB text-the complete OMB text lists
another party who is considered an acceptable individual for purposes of confirming the distribut ion of
payroll expense-a "respo nsible official(s)." Therefore, under the examples provided by the OMB in this
section, the certification of a payroll distribution can be made " by the employee, principal investigator
or responsible official(s) using suitable means of verification that the work was performed".

The other Section of the OMB Circular A-21 that is applicable but not referenced in the OIG report is
Section J.10.b.(1)(c) and (d) Compensation for personal services- Payroll Distribution, Genera l
Principles. Specifica lly, subsections (c) and (d) state:

       (c) In the use of any methods for apportioning salaries, it is recognized that, in an academic setting, teaching,
      research, service, and administration are often inextricably intermingled. A precise assessment of factors that
      contribute to costs is not always feasible, nor is it expected. Reliance, therefore, is placed on estimates in
      which a degree of tolerance is appropriate.

     (d) There is no single best method for documenting the distribution of charges for personal services. Methods
     for apportioning salaries and wages, however, must meet the criteria specified in subsection b.(2). Examples of
     acceptable methods are contained in subsection c. Other methods that meet the criteria specified in subsection
     b.(2) also shall be deemed acceptable, if a mutually satisfactory alternative agreement is reached .

The section acknowledges th e comp lexity of payroll distribution and methods will vary to accommodate
this com plexity.

CU Denver's Disclos ure Statement (DS-2) also acknowledges this complexity by referencing both the
employee and employer's involvement in the actual certification of the payroll distribution. Viewing CU
Denver's DS-2 within the OMB framework indicates that the employee is not the only individual that can
certify the payroll distribution nor does it exclude the va lidity of the employer's approval of the effort
distribution documented in other locations other than just the timecard. Keeping CU Denver's DS-2
statement within the context of the complexity referenced in t he OMB Circular A-21, provides a more
complete and well-rounded interpretation of the over-all requirements of effort certification: (1)
certification the number of hours worked are accurate and (2) the distribution of these actual hours are
allocated to the project(s) to which they benefitted and this distribution is approved by someone with
f irst-hand knowledge.




January 25, 201 3
Page 2 of 53
                                                                                                              Page 4 of9



University of Colorado Denver
OIG Audit of Allowable Direct Charges
Response to Final Report Draft Received December 27, 2012

Salary Costs- Sample Items Response

The University of Colorado Denver (CU Denver) agrees w ith the errors noted for the following payroll
items·
   Item         Project ID    Pay Period     Disallowed
 Number                        End Date        Amount      Reason for Disallowance
      68            2517082   10/31/2009        2,083.33   Unsupported charges
       5            2574389    3/31/2010           28.14   Administrative salary charged as direct
      28            2573723    6/30/2010           84.26   Administrative salary charged as direct
      29            2574047    7/31/2010          216.67   Administrative salary charged as direct
      10            2526987    2/20/2010          480.00   Disagree with Unsupported Cha rges conclus ion
                                                           but agree with cost transfer not supported
                                   Total        2,892.40

These expenses have been removed from the projects, and the amounts reimbursed to our Sponsor(s).

CU Denver however disaerees with the remaining thirteen disallowances in th is section·
          '       '
    Item                Pay Period      Disallowed
 Number     Project ID    End Date         Amount Reason for Disallowance
                                                      Timesheet re ported total hours worked but no
       12    2574313      2/6/2010            40.00 projects or activities.
                                                           Timesheet reported total hours worked but no
        18          2591124     1/9/2010         106.25    projects or activities.
                                                           Timesheet reported total hours worked but no
        25          2552475     3/6/2010         235.00    projects or activities.
                                                           Timesheet reported total hours wo rk ed but no
        52          2550159    10/3/2009         462.00    projects or activities.
                                                           Timesheet reported tota l hou rs worked but no
        64          2594160    2/20/2010         543.25    projects or activities.
                                                           Timesheet repo rted tota l hours worked but no
        65          2594165   11/28/2009         122.10    projects or activities.
                                                           Timesheet reported total hours wo rked but no
        66          2594165    2/20/2010         168.28    projects or activities.
                                                           Timesheet report ed total hours worked but no
        67          2570079    6/12/2010         300.00    projects or activities.
                                                           Timesheet reported t otal hou rs worked but no
        79          2560394    8/7/2010           72.24    projects or activities.
                                                           Timesheet reported total hours worked but no
        90          2550230   8/21/2010          780.00    projects or activities.
                                                           Timesheet reported total hours worked but no
       95           2521655    4/3/2010          486.00    projects or activities.
                                                           Timesheet reported total hours worked bu t no
       97           2515366   7/10/2010          475.88    projects or activities.
                                                           Timesheet reported total hours worked but no
                                                           projects or activities. Also, cost t ransfer not
       83           2590224   6/12/2010          936.00    supported .
                                   Total       4,727.00




January 25. 201 3
Page 3 of 53
                                                                                                              Page 5 of9



University of Colorado Denver
OIG Audit of Allowable Direct Charges
Response to Final Report Draft Received December 27, 2012

As conceded by the OIG at the July 10, 2012 exit conference, the thirteen above disputed expenses are
appropriate and therefore the Federal Government was not harmed by the booking and reimbursement
of these wage transactions. The issue under continued discussion is the interpretation of what
co nstitutes sufficient supporting documentation as outlined in CU Denver's DS-2 for only the distribution
of the sufficiently documente d actual hou rs worked .

To determine the adequacy of the internal controls over hourly employees' wages, the functioning of
the laboratory environment must be taken into account. Hourly employees most often are respo nsible
for routine, repetitive tasks. As a result, the hourly employee would generally be able to certify to which
project their work benefits only if they are hired to work on one project, or if working on multiple
projects, each project is located in a separate laboratory. The hourly employee, most often, will not
have knowledge of which projects their work benefits and in what proportion if they work on multiple
projects located in the same laboratory.

For example, an hour ly employee may wash glassware or run assays where the identical activity is
comp leted regardless of which project used the glassware or used the assay results. In these instances,
only the PI and/or his/her laboratory management/administrative/fiscal staff would have kno wledge of
the mix of the active projects in the single laboratory during the pay-period and therefore the
knowledge of the appropriate allocation method to reasonably allocate the hourly employees' effort.

To incorporate the first-hand knowledge needed for appropriate allocation into our processes, CU
Denver includes a review/approva l of the tim ecard input batch by one of the PI's appropriate laboratory
management/administrative/fisca l staff. This occurs after the work is completed and the expense
allocation is dete rmin ed, but before the expense is booked to the General Ledger (G/L) and the
paycheck cut.

This "batch approval process" is part of CU Denver's standard hourly payroll approval process that is
required for all hourly payroll transactions. Unlike reliance upon only the time-card for documentation,
this standard batch approval process would be applicable in all situations and for every batch entered as
part of the bi-weekly payroll cycles.

This approval is documented in the payroll system. The name and title of each approver for each batch
under discussion in June/July 2012, was provided to the OIG auditors on June 19, 2012. There are two
additional batch approvals that are attached to this response.

In addition to the statement in CU Denver's DS-2 referenced by the OIG above, this section continues on
to reference both the employee and employer's involveme nt in the actual certification. As a result, it is
CU Denver's intent and disclosed in our DS-2 Statement that the review/approval process of the actual
time distribution via the batch approval is to be considered as part of the complete approva ls and in
addition to the time-card the review/ce rtification.

If an interpretation of CU Denver's DS-2 statement were to require the use of anything less than both
approval/cert ification pieces, it would only weaken the internal controls ofthe current approval
processes. As a result, it is CU Denver's position that these thirteen transactions were approved by both
the employee, certifying the number of hours worked and by one of the PI's staff with the knowledge of
the appropriate allocation of the expense certifying the accuracy of the allocation of effort after the
work is complete and before the expe nse is booked to the General Ledger. As a result, these expenses



January 25, 2013 

Page 4 of 53 

                                                                                                                Page 6 of9




University of Colorado Denver
OIG Audit of Allowable Direct Charges
Response to Final Report Draft Received December 27, 2012

do meet documentation standards of both OMB Circular A-21 and also of CU Denver's DS-2 statement
(taken in its entirety). Therefore it is CU Denver's position that these costs are allowable as direct
charges.

In addition, the OIG recommended that the cost transfer for salary sample item number 83 is
unallowable due to insufficient documentation of the cost transfer. CU Denver disagrees with this
recommendation. The cost transfer references that this transfer of wage expense was per !REDACTED I
(the PI on this award) and dREDACTED !the PI's fiscal staff). Per OMB Circular A-21 Section C.4.d.(4) t he
approval of the principal investigator or designee is usually sufficient if the institution authorizes the PI
as having the primary responsibility for the awards. This is the case for CU Denver. As a result, CU
Denver disagrees with both errors noted on this sample item and is of the position that this is also an
allowable direct cost.

Salary Costs- Summary

    • 	 All of the thirteen t ransactions in dispute meet the A-21 requirements referenced above 

        because: 

             o 	 After-the-fact confirmation of the number of hours worked was provided by the hourly
                  employees signatures, and
             o 	 The distribution of these actual hours was determined by a representative of the
                  employer with adequate first-hand knowledge of the best allocation method to be used
                  to most closely match how actual effort was spread across the project s active during the
                  pay-period
        All thirteen transactions are appropriate direct costs and therefore, the Federal Government has
        not been harmed
    • 	 All thirteen transactions in dispute also align with CU Denver's DS-2 where the review and
        approval of the distribution of actual effort by the employer's representative is documented via
        the standard batch approval of the actual expense allocation with-in the bi-weekly payroll cycle .
    • 	 All batch approvals also docum ent CU Denve r's compliance with adequate internal controls as
        required by General ly Accepted Accounting Principles.

Non Salary Cost s - Sample Item Respo nse

Of the nine errors t hat were identified by the OIG, CU Denver agrees with all of the fo llowing items:


   Item      Project       Journal      Disallowed
 Number           ID         Date          Amount                      Category of Questioned Cost
        7   2515328    12/15/2009            145.00                       F & A costs charged as direct
       28   2522262      2/18/2010           318.75                       F & A costs charged as direct
       14   2517784       7/1/2010           270.00                       F & A costs charged as direct
       74   2574304    11/30/2009            183.96                       F & A costs charged as direct
      81    2581203      5/12/2010            41.46                       F & A costs charged as direct
      43    2552496      1/28/2010           400.00                                    Missing invoice
      42    2550237      6/30/2010             6.12           Unallocable costs- Costs charged in error
       91   2591129       5/6/2010            29.25                                  Unallocable costs



January 25, 2013
Page 5 of 53
                                                                                                                Page 7 of9



University of Colorado Denver
OIG Audit of Allowable Direct Charges
Response to Final Report Draft Received December 27, 2012



These expenses have been removed from the projects, and the amounts reimbursed to our Sponsor(s).

However, CU Denver disagrees with the following item:


   Item        Project      Journal      Disallowed
 Number             ID        Date          Amount                      Category of Questioned Cost
        77    2580858    5/26/2010            220.52        Shared costs with no basis for allocation

The supported documentation forwarded to the OIG during t he fieldwork (and again attached with this
response) indicated that this expense was not allocated to more than one project. Rather the supplies
were consumed by the si ngle project to which the purchase was charged.

However, in the Exit Conference, the OIG indicated that per their interview with the PI, that these
supplies were shared and therefore should have been allocated among more than one project.

With this large disparity, the Office of Grants and Contracts at CU Denver, contacted the PI to inquire if
they could assist with helping explain th is disparity based on their recollection of the interview with the
OIG auditors. The PI has provided the email included in this response that indicates that the specific
invoice was properly charged to the single project. He also mentions that his response to the OIG
auditors was more general in nature rather than specific to this invoice.

As a resu lt, this charge should be allowable as a direct cost and removed from this final report.



INADEQUATE CONTROLS

The Draft report makes the follo wing finding:

The University's oversight did not ensure that the costs that the University charged to HHS awards were
allowable. Although its finance and accounting procedures often incorporated text from the applicable
cost principles, the University largely left it to the discretion ofits individual colleges, departments, and
principal investigators to interpret the University's policies and procedures for charging costs to Federal
awards correctly and to comply with Federal regulations and guidance. In addition, the University's
Office of Grants and Contracts' review of transactions did not ensure that the colleges, departments, and
principal investigators proposed transactions that fully complied with Federal regulations. Without
adequate oversight, the University could not ensure that administrative expenses charged as direct costs
to HHS awards complied with applicable Federal regulations.

Interna l Controls: The control environment at CU Denver is an effective partnership between the
principle investigator (PI), campus departments, and the Office of Grants and Contracts. The University
operates in a decentralized manner with shared responsibility starting from the origination of a
transaction at the department level to the issuance of the fede ral financial report (FFR) by the Office of
Grants and Contracts (OGC) . All purchase order expenditure t ransactions that exceed a $5,000
threshold are pre-audited by OGC prior to processing. Cost t ransfers are created by knowledgeable
departmental personnel and reviewed and approved by OGC Post Award staff. Timely detailed financial
transaction reports by project are made available to t he PI, departmental administrators, and OGC t o


January 25, 2013 

Page 6 of 53 

                                                                                                               Page 8 of9



University of Colorado Denver
OIG Audit of Allowable Direct Charges
Response to Final Repo rt Draft Received December 27, 2012

assist with their review. The Office of Grants and Contracts through Post Awa rd Administration also
conducts a review of direct charges to sponsored projects during FFR preparation which occurs at
various set intervals during the life of the project. Any questioned or inappropriate charges are
removed from the applicable sponsored project. This total partnership approach between the
department and OGC helps to ensure transactions are allowable and adhere to federal ru les and
regulations.

Prior Audits: CU Denver's internal control environment as outlined above was verified by two prior 

independent audits conducted on behalf of NIH and the National Science Foundation that were issued 

on April19, 2011 and September 7, 2012 respectively. These audits confirmed no material weaknesses 

in CU Denver's intern al controls processes. Copies of these reports may be obtained directly from NIH 

and NSF. The related contact information is attached to this letter. 


Training Program: CU Denver has an extensive sponsored project administration tra ining program t o 

support the control environment and partnership with the PI and campus departments. See website at 

http://www.ucdenver .ed u/ academics/research/AboutUs/Gra ntsContractsOffice/train i ng­

documentation/training/Pages/AdministratorStaffEducation.asp. Training areas include: 


a)   Research Administration for Faculty 

b) Research Administration for Departmental Administrators- Start to Finish 

c)   Electronic Personnel Effort Reporting 

d) Direct Charging to Sponsored Proj ects 


Since 2005, all new Pis have been required to complete the above courses before expenses may be 

booked to a sponsored project. This is controlled by restriction of the General Ledger acco unt that has 

been set-up for the sponsored project work. Once the above courses are completed, the account will 

become available to the Pl. 


In addition, OGC offers monthly "Br own Bag" meetings to help reinforce the control environment. 

Topics include, direct charging, cost transfers, effort re porting, etc. For a listing of recent brown bag 

sessions, see website 

http://www. ucdenve r.ed u/acad em ics/ research/AboutUs/G ra ntsContractsOffice/train ing­

docu mentation/train ing/Pages/Brown BagSessions.aspx. 


Al l of the agreed-upon errors ca n be cha ra cterized as independent, isolated errors and t here is no 

indication that these w ere the result of a common and systematic cause. The issu e of the relinquished 

awards was also one that was independently self-identifie d by CU Denver and managed to a successful 

conclusion. 


The remaining items (i.e., the salary errors under dispute) are due to differing interpretation of the 

documentation sta ndards of only the allocation of hourly payroll expenses as outlined in CU Denver's 

DS-2 . Therefore, the co ncern s und er discussion do not relate to the adequacy of the interna l controls 

built into CU Denver's business process. Rather these conce rns related t o only the interpretation of 

sufficie nt documentation required by CU Denver's DS-2. 





January 25, 2013 

Page 7 of 53 

                                                                                                                  Page 9 of9




University of Colorado Denver
DIG Audit of Allowable Direct Charges
Response to Final Report Draft Received December 27, 2012

It should also be noted that the focus ofthe DIG' s audit was the allowability of direct expenses. As a
result, most of the field work completed was reviewing supporting documentation of specific
transactions and the allocation thereof. There were few discussions or request s for data that would
have tested CU Denver's various business processes and internal control points contained therein. As a
result, it is CU Denver's position that DIG's conclusion regarding internal controls does not match with
the type of reviews comp leted or with the nature of the errors noted.



OTHER MATIERS

Under this section, DIG concludes that, due to three ePERS being certified past the CU Denver's gQEj of
120 days that "the University has less assurance that the claimed salaries charged to HHS grants for
those employees were appropriate".

CU Denver disagrees with the number of ePERs DIG referenced that we re received after CU Denver's
goa l and the conclusions drawn regarding the impact of these ePERs.

  Item         Project ID    Pay Period           Expense
 Number                       End Date            Amount                                          ePER Status
                                                               Certified between 45'" and 70'" day after report
    22          2526894       3/31/2010           1,359.25                                             creation
    51          2550159       4/30/2010           4185.61         Certified 3.5 Months after CU Denver's goal
    72          2581116      10/17/2009             811.20            Certified 2 Months after CU Denver's goal



As part of CU Denver's standard process, email rem inders are sent both before and, if needed, after the
targeted 120 day response goal is reached . This was true for the three ePERs referenced in this DIG
report. The result of this follow-up was that the two ePERs were only 2 months and 3.5 mont hs past the
targeted due date.

The third ePER identified by the OIG as late was certified between the 45th and 70th day following the
ePER creation date, and therefore cannot be categorized as late. The date on the ePER forwarded to the
DIG during the field work was a re -certification date rather than the date of the original certification.

Based on the additional documentation forwarded with this response, both the original certification and
the re-certification were completed within the 120-day goal. As a resu lt, it is CU Denver's position that
this error should be removed before the final report is issued, and the statistics in the report modified to
2 delayed ePERs out of 58 {3% of the items sampled) .

In summary, neither DMB Circular nor CU Denver policy cites a defi nitive deadline for the completion of
an ePER for a salary cost to be allowable. This lack of deadline along with the demonstrated
effectiveness of CU Denver's standard follow-up (resulting in both ePERs being completed) does not
support DIG's conclusion that ePERs poses a risk to the assurance of accurate effort distribution. As a
result, it is CU Denver's position that the data supports the conclusion that there is not a concern with
the effort distribution conf irmation related to the allowability of expenses, and therefore this section
should be removed from the fina l report.




January 25, 2013 

Page 8 of 53 

